                                                  NATIONAL
                                                   OFFICE OF SCIENCE
                                                             INSPECTOR
                                                                     FOUNDATION
                                                                       GENERAL

  .                                                  OFFICE OF INVESTIGATIONS

 f@.
  0
   4

   ON o
                                            CLOSEOUT MEMORANDUM

 Case Number: ---';
                          s
                              --:'
                               404,070035                                                   Page 1 of 1



         During a peer review meeting, a panelist' identified allegedly plagiarized text in a proposal2
         where the source document was an NSF proposal3 she had previously been involved in
         developing. The amount of plagiarized text was de minimus. We used a plagiarism software
         analyze the entire proposal and found no additional text that was common to other published
         documents.

          Since the amount of copied text was de minimus, we will take no further action.   Accordingly,this
          case is closed.




                                                                                                               \




NSF OIG Form 2 (1 1/02)
